                Department of Veterans Affairs
                Office of Inspector General



                  Office of Healthcare Inspections

Report No. 14-00309-118




     Combined Assessment Program 

              Review of the 

       Portland VA Medical Center 

            Portland, Oregon 





April 9, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                          CAP Review of the Portland VA Medical Center, Portland, OR



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 COS            Chief of Staff
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Portland VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                       CAP Review of the Portland VA Medical Center, Portland, OR



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. VISN Director Comments ..................................................................................                    20

  D. Interim Facility Director Comments ...................................................................                       21

  E. OIG Contact and Staff Acknowledgments .........................................................                              27

  F. Report Distribution .............................................................................................            28

  G. Endnotes ...........................................................................................................         29





VA OIG Office of Healthcare Inspections
                                          CAP Review of the Portland VA Medical Center, Portland, OR



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
January 27, 2014.

Review Results: The review covered seven activities.      The facility’s reported
accomplishments were its Homeless Program and recognition as a Joint Commission
top performer.

Recommendations: We made recommendations in all seven of the following
activities:

Quality Management: Ensure that the Operative Care Division Quality and Performance
Group meets monthly, includes the Chief of Staff as a member, and documents its
review of National Surgical Office reports. Track and review all surgical deaths.

Environment of Care: Alarm all emergency exits on the locked mental health unit.
Ensure panic alarm testing on the locked mental health unit includes VA Police
response time.

Medication Management: Ensure that patient learning assessments are documented
within 24 hours of admission and that clinicians conducting medication counseling
accommodate identified learning barriers and document the accommodations made to
address those barriers.

Coordination of Care: Ensure patients receive ordered aftercare services and/or items
within the expected timeframe. Require the facility to have a Veteran Health Education
Coordinator.

Nurse Staffing: Monitor the staffing methodology that was implemented in June 2013.
Ensure all expert panel members receive the required training prior to the next annual
staffing plan reassessment.

Pressure Ulcer Prevention and Management: Document pressure ulcer stage, and
consistently document required pressure ulcer information.       Ensure all patients
discharged with pressure ulcers have wound care follow-up plans and receive dressing
supplies prior to being discharged. Provide and document pressure ulcer education for
patients with pressure ulcers and/or their caregivers. Establish staff pressure ulcer
education requirements.

Community Living Center Resident Independence and Dignity: Document resident
progress towards restorative nursing goals.




VA OIG Office of Healthcare Inspections                                                            i
                                          CAP Review of the Portland VA Medical Center, Portland, OR


Comments
The Veterans Integrated Service Network Director and Interim Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 20–26, for
the full text of the Directors’ comments.) We consider recommendation 8 closed. We
will follow up on the planned actions for the open recommendations until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                            ii
                                          CAP Review of the Portland VA Medical Center, Portland, OR



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
January 28, 2014, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                           1
                                          CAP Review of the Portland VA Medical Center, Portland, OR


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Portland VA Medical Center, Portland, Oregon, Report
No. 10-01523-200, July 21, 2010).

During this review, we presented crime awareness briefings for 294 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
629 responded. We shared summarized results with the facility Director.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Homeless Program
The facility’s Homeless Program includes several services that are designed to address
the needs of chronically homeless veterans, currently homeless veterans, and veterans
who are at risk of becoming homeless. The program has a SharePoint site for all
employees to ensure knowledge of resources and access to all of the facility’s homeless
services. Program entry is through the Community Resource and Referral Center. The
Community Resource and Referral Center is a one-stop shop for community partners,
internal customers, and veterans and provides a consistent and streamlined process.

Community partners donated funds to help obtain housing vouchers during FY 2013.
Between 2011 and March of 2013, the facility’s Homeless Program was able to
successfully house 100 veterans. Due to these efforts, the program received both an
award from Portland’s mayor and a Coordinating Committee to End Homelessness
Achievement Award. Additionally, the facility is a finalist for an award in the Community
Partnership Challenge for work done with the Portland community and Operation 305 (a
Portland Housing Bureau program).

Joint Commission Recognition
The facility was recognized 2 years in a row as a top performer among Joint
Commission-accredited hospitals for a significant achievement in accountability and
performance measures. Only 9 VA facilities have been rated as top performers for
2 consecutive years. The facility achieved a top rating in all four measures—heart
attack, heart failure, pneumonia, and surgical care.




VA OIG Office of Healthcare Inspections                                                           2
                                                CAP Review of the Portland VA Medical Center, Portland, OR



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The area marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                      Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the COS and
          included membership by applicable service
          chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated, completed, and reported to the
       MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                 3
                                                  CAP Review of the Portland VA Medical Center, Portland, OR


NM              Areas Reviewed (continued)                                    Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected            The Operative Care Division Quality and
       requirements:                                        Performance Group only met 6 times over the
        An interdisciplinary committee with                past 10 months.
          appropriate leadership and clinical
                                                          Six sets of Operative Care Division Quality and
          membership met monthly to review surgical
                                                          Performance Group meeting minutes reviewed:
          processes and outcomes.
                                                           The COS was not a member.
        All surgical deaths were reviewed.
                                                           There was no evidence that National Surgical
        Additional data elements were routinely
                                                             Office reports were reviewed.
          reviewed.
                                                           The facility’s process did not ensure that all
                                                             surgical deaths were tracked and reviewed by
                                                             appropriate clinical staff.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                   4
                                                 CAP Review of the Portland VA Medical Center, Portland, OR


NM              Areas Reviewed (continued)                                  Findings
       The process to review blood/transfusions
       usage met selected requirements:
        A committee with appropriate clinical
          membership met at least quarterly to review
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that the Operative Care Division Quality and Performance Group meet
monthly, include the COS as a member, and document its review of National Surgical Office
reports.

2. We recommended that processes be strengthened to ensure that all surgical deaths are
tracked and reviewed by appropriate clinical staff.




VA OIG Office of Healthcare Inspections                                                                  5
                                                CAP Review of the Portland VA Medical Center, Portland, OR


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected the emergency department, the CLC, the intensive care unit, the acute MH unit,
inpatient medical and surgical units, primary care, the eye clinic, and the x-ray and fluoroscopy
units. Additionally, we reviewed relevant documents, conversed with key employees and
managers, and reviewed 30 employee training records (10 radiology employees, 10 acute MH
unit employees, 5 Multidisciplinary Safety Inspection Team members, and 5 occasional acute
MH unit employees). The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                               Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                 
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,     
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.




VA OIG Office of Healthcare Inspections                                                                 6
                                                   CAP Review of the Portland VA Medical Center, Portland, OR


NM      Areas Reviewed for Radiology (continued)                               Findings
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for                     
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
       MH unit staff, Multidisciplinary Safety
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.




VA OIG Office of Healthcare Inspections                                                                    7
                                             CAP Review of the Portland VA Medical Center, Portland, OR


NM      Areas Reviewed for Acute MH (continued)                         Findings
 X     The locked MH unit(s) was/were in             Emergency exits were not alarmed. 
       compliance with MH EOC Checklist safety       Although panic alarm testing was conducted,
       requirements or an abatement plan was in       VA Police response time was not
       place.                                         documented for the past 2 months.
       The facility complied with any additional       
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

3.   We recommended that all emergency exits on the locked MH unit be alarmed.

4. We recommended that processes be strengthened to ensure that locked MH unit panic
alarm testing includes VA Police response time and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                              8
                                                  CAP Review of the Portland VA Medical Center, Portland, OR


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 31 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
 X     Clinicians conducted inpatient learning            For 5 of the 28 applicable patients, learning
       assessments within 24 hours of admission or         assessments were conducted more than
       earlier if required by local policy.                24 hours after admission.
 X     If learning barriers were identified as part of    For two of the five patients with identified
       the learning assessment, medication                 learning barriers, EHR documentation did not
       counseling was adjusted to accommodate the          reflect medication counseling accommodation
       barrier(s).                                         to address the barriers.
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

5. We recommended that processes be strengthened to ensure that patient learning
assessments are documented within 24 hours of admission and that compliance be monitored.

6. We recommended that processes be strengthened to ensure that clinicians conducting
medication counseling accommodate identified learning barriers and document the
accommodations made to address those barriers and that compliance be monitored.



VA OIG Office of Healthcare Inspections                                                                    9
                                                CAP Review of the Portland VA Medical Center, Portland, OR


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents, and we conversed with key employees. Additionally, we
reviewed the EHRs of 32 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                       Findings
      Patients’ post-discharge needs were identified,
      and discharge planning addressed the
      identified needs.
      Clinicians provided discharge instructions to
      patients and/or caregivers and validated their
      understanding.
 X    Patients received the ordered aftercare            Six (19 percent) patients did not receive the
      services and/or items within the                    services and/or items ordered within the
      ordered/expected timeframe.                         ordered/expected timeframe.
      Patients’ and/or caregivers’ knowledge and
      learning abilities were assessed during the
      inpatient stay.
 X    The facility complied with any additional         VHA and facility policy reviewed:
      elements required by VHA or local policy.          The facility did not have a Veterans Health
                                                          Education Coordinator.


Recommendations

7. We recommended that processes be strengthened to ensure that patients receive ordered
aftercare services and/or items within the ordered/expected timeframe.

8.   We recommended that the facility have a Veterans Health Education Coordinator.




VA OIG Office of Healthcare Inspections                                                                   10
                                                  CAP Review of the Portland VA Medical Center, Portland, OR


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed facility and unit-based expert panel documents and 47 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 3 randomly selected units—acute medical/surgical unit 9D, CLC unit E wing,
and MH unit 5C—for 50 randomly selected days between October 1, 2012, and
September 30, 2013. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                      Findings
 X     The facility either implemented or reassessed      Initial implementation was not completed until
       a nurse staffing methodology within the             June 30, 2013.
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
 X     Members of the expert panels completed the         Four of the 32 (13 percent) members of the
       required training.                                  unit-based expert panels had not completed
                                                           the required training.
                                                          Four of the 15 members of the facility expert
                                                           panel had not completed the required
                                                           training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy

Recommendations

9. We recommended that nursing managers monitor the staffing methodology that was
implemented in June 2013.

10. We recommended that all members of the facility and unit-based expert panels receive the
required training prior to the next annual staffing plan reassessment.




VA OIG Office of Healthcare Inspections                                                                    11
                                                              CAP Review of the Portland VA Medical Center, Portland, OR


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 25 EHRs of patients with pressure ulcers (10 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
5 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected three patient rooms. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

    NM                   Areas Reviewed                                                        Findings
         The facility had a pressure ulcer prevention
         policy, and it addressed prevention for all
         inpatient areas and for outpatient care.
         The facility had an interprofessional pressure
         ulcer committee, and the membership
         included a certified wound care specialist.
         Pressure ulcer data was analyzed and
         reported to facility executive leadership.
         Complete skin assessments were performed
         within 24 hours of acute care admissions.
         Skin inspections and risk scales were
         performed upon transfer, change in condition,
         and discharge.
    X    Staff were generally consistent in                            In 3 of the 25 EHRs, staff did not document
         documenting location, stage, risk scale score,                 pressure ulcer stage.
         and date acquired.                                            In 10 of the 25 EHRs, staff were not
                                                                        consistent in documenting required pressure
                                                                        ulcer information. For example:
                                                                         For 1 patient, documentation regarding
                                                                            the presence of a pressure ulcer was
                                                                            missing for 4 consecutive days despite
                                                                            the patient having a previously identified
                                                                            stage IIa ulcer.
                                                                         For six patients with current pressure
                                                                            ulcers, documentation indicated that the
                                                                            patients were not at risk for pressure
                                                                            ulcers and that the pressure ulcer protocol
                                                                            was not indicated. Because the protocol
                                                                            was not initiated, interventions were not
                                                                            identified.
         Required activities were performed for
         patients determined to be at risk for pressure
         ulcers and for patients with pressure ulcers.

a
  A stage II ulcer is a partial thickness loss of skin that presents as a shallow open sore. It may also present as an intact or open
fluid-filled blister.


VA OIG Office of Healthcare Inspections                                                                                           12
                                                 CAP Review of the Portland VA Medical Center, Portland, OR


NM              Areas Reviewed (continued)                                   Findings
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
 X     If the patient’s pressure ulcer was not healed    Three of the applicable four EHRs did not
       at discharge, a wound care follow-up plan was      contain evidence of wound care follow-up
       documented, and the patient was provided           plans at discharge.
       appropriate dressing supplies.                    Two of the applicable three EHRs did not
                                                          contain evidence that patients received
                                                          dressing supplies prior to discharge.
 X     The facility defined requirements for patient    Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and      education requirements reviewed:
       education on pressure ulcer prevention and        For 4 of the applicable 19 patients with a
       development was provided to those at risk for      pressure ulcer, EHRs did not contain
       and with pressure ulcers and/or their              evidence that education was provided.
       caregivers.
 X     The facility defined requirements for staff       The facility had not developed staff pressure
       pressure ulcer education, and acute care staff     ulcer education requirements.
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

11. We recommended that processes be strengthened to ensure that acute care staff document
stage for all patients with pressure ulcers and that compliance be monitored.

12. We recommended that processes be strengthened to ensure that acute care staff
consistently document required pressure ulcer information and that compliance be monitored.

13. We recommended that processes be strengthened to ensure that all patients discharged
with pressure ulcers have wound care follow-up plans and receive dressing supplies prior to
being discharged and that compliance be monitored.

14. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients with pressure ulcers and/or their caregivers
and that compliance be monitored.

15. We recommended that the facility establish staff pressure ulcer education requirements and
that compliance be monitored.



VA OIG Office of Healthcare Inspections                                                                   13
                                                CAP Review of the Portland VA Medical Center, Portland, OR


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 12 EHRs of residents (6 residents receiving restorative nursing services and
6 residents not receiving restorative nursing services but candidates for services). We also
observed 37 residents during 2 meal periods, reviewed 10 employee training/competency
records and other relevant documents, and conversed with key employees. The table below
shows the areas reviewed for this topic. The area marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM                      Areas Reviewed                                     Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
 X     Resident progress towards restorative nursing     In two of the six applicable EHRs, there was
       goals was documented, and interventions            no evidence that facility staff documented
       were modified as needed to promote the             resident progress towards restorative nursing
       resident’s accomplishment of goals.                goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.



VA OIG Office of Healthcare Inspections                                                                14
                                             CAP Review of the Portland VA Medical Center, Portland, OR


NM        Areas Reviewed for Assistive Eating                             Findings
         Devices and Dining Service (continued)
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

16. We recommended that processes be strengthened to ensure that staff document resident
progress towards restorative nursing goals and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                             15
                                                  CAP Review of the Portland VA Medical Center, Portland, OR
                                                                                                Appendix A


                Facility Profile (Portland/648) FY 2014 through
                                  February 2014b
Type of Organization                                                           Tertiary
Complexity Level                                                               1a-High complexity
Affiliated/Non-Affiliated                                                      Affiliated
Total Medical Care Budget in Millions                                          $580.2
Number of:
    Unique Patients                                                           61,557
    Outpatient Visits                                                         311,036
    Unique Employeesc                                                         3,144
Type and Number of Operating Beds
(December 2013):
    Hospital                                                                  167
    CLC                                                                       72
    MH                                                                        28
Average Daily Census (January 2014):
    Hospital                                                                  160
    CLC                                                                       70
    MH                                                                        26
Number of Community Based Outpatient Clinics                                   7
Location(s)/Station Number(s)                                                  Vancouver/648A4
                                                                               Bend/648GA
                                                                               Salem/648GB
                                                                               North Coast/648GD
                                                                               East Metro Portland/648GE
                                                                               West Metro Portland/G48GF
                                                                               West Linn/648GG
VISN Number                                                                    20




b
    All data is for FY 2014 through February 2014 except where noted.

c
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  16
                                                                       CAP Review of the Portland VA Medical Center, Portland, OR
                                                                                                                     Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)d




d
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                       17
                                                            CAP Review of the Portland VA Medical Center, Portland, OR



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                            18
                                                                                                            CAP Review of the Portland VA Medical Center, Portland, OR


                                                                         Metric Definitions
 Measure                       Definition                                                                             Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)      A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                             A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                   A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                            A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)         A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                          A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                      A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                 A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                   A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                         A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                   A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)      A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)               A higher value is better than a lower value
 PSI                           Patient safety indicator                                                               A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                       A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                         A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                   A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                  A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction              A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                 A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                    A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                         A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)             A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                             19
                                          CAP Review of the Portland VA Medical Center, Portland, OR
                                                                                        Appendix C
                                 VISN Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:        March 11, 2014

          From:         Director, Northwest Network (10N20)

       Subject:         CAP Review of the Portland VA Medical Center,
                        Portland, OR

             To:        Director, Seattle Office of Healthcare Inspections (54SE)

                        Acting Director, Management Review Service (VHA 10AR
                        MRS OIG CAP CBOC)

       1. Thank you for the opportunity to respond to the proposed
          recommendations from the Combined Assessment Program Review at
          the Portland VA Medical Center, Portland, Oregon.

       2. Attached please find the facility concurrences and responses to each
          of the findings from the review.

       3. If you have additional questions or need further information, please
          contact Susan Green, Survey Coordinator, VISN 20 at (360) 567-4678.


         (original signed by:)
       Lawrence H. Carroll




VA OIG Office of Healthcare Inspections                                                          20
                                          CAP Review of the Portland VA Medical Center, Portland, OR
                                                                                        Appendix D
                      Interim Facility Director Comments



               Department of
               Veterans Affairs                                    Memorandum


           Date:       March 6, 2014

          From:        Interim Director, Portland VA Medical Center (648/00)

       Subject:        CAP Review of the Portland VA Medical Center,
                       Portland, OR

             To:       Director, Northwest Network (10N20)

       Thank you for the opportunity to review the report on the Office of
       Inspector General Combined Assessment Program Review at the Portland
       VA Medical Center during the week of January 27, 2014. We concur with
       the findings and recommendations and will ensure that actions to correct
       them are completed as described.

       If you have any additional questions or need further information,
       please contact Nancy Kraft, Chief, Quality and Performance Service at
       503-220-5347.




       MICHAEL W. FISHER
       Interim Medical Center Director




VA OIG Office of Healthcare Inspections                                                          21
                                          CAP Review of the Portland VA Medical Center, Portland, OR


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Operative Care Division Quality and
Performance Group meet monthly, include the COS as a member, and document its
review of National Surgical Office reports.

Concur

Target date for completion: April 2014

Facility response: The Operative Care Division Quality and Performance Group started
meeting monthly November, 2013. The COS is a member and has been attending this
meeting as of February, 2014. The review of the National Surgical Office reports and
any follow-up actions arising from this review are now being documented in meeting
minutes and tracked to closure as appropriate.

Recommendation 2. We recommended that processes be strengthened to ensure that
all surgical deaths are tracked and reviewed by appropriate clinical staff.

Concur

Target date for completion: May 2014

Facility response: All surgical deaths are now assigned a unique tracking number to
facilitate the documentation of reviews and any follow-up actions. Surgical deaths
reviewed by the Operative Care Division Quality and Performance Group (Surgical
Work Group) will be identified by the assigned tracking numbers in the meeting minutes
beginning February 2014.

Recommendation 3. We recommended that all emergency exits on the locked MH unit
be alarmed.

Concur

Target date for completion: September 2014

Facility response: Facilities Management will install local and audible alarms on all exit
doors on the locked MH unit (5C).




VA OIG Office of Healthcare Inspections                                                          22
                                          CAP Review of the Portland VA Medical Center, Portland, OR


Recommendation 4. We recommended that processes be strengthened to ensure that
locked MH unit panic alarm testing includes VA Police response time and that
compliance be monitored.

Concur

Target date for completion: June 2014

Facility response: Beginning immediately, Police will include response time in their
monthly testing of 5C panic alarms. This will be monitored by the MH EOC team to
ensure compliance.

Recommendation 5. We recommended that processes be strengthened to ensure that
patient learning assessments are documented within 24 hours of admission and that
compliance be monitored.

Concur

Target date for completion: June 2014

Facility response: The “Education Assessment” field in the Nursing Admission Note is
now a mandatory field. This documentation will be monitored by the Veterans Health
Education & Information Committee to ensure 90% compliance or greater.

Recommendation 6. We recommended that processes be strengthened to ensure that
clinicians conducting medication counseling accommodate identified learning barriers
and document the accommodations made to address those barriers and that
compliance be monitored.

Concur

Target date for completion: June 2014

Facility response: The Pharmacy Discharge Education note template has been updated
to ensure that accommodations to address identified learning barriers are implemented
and documented. All clinicians conducting medication education will be educated on
the updated template and the need to accommodate identified learning barriers and
document appropriately.

Compliance with implementing and documenting accommodations to address identified
learning barriers will be monitored by pharmacy management to ensure 90% or greater
compliance is sustained.




VA OIG Office of Healthcare Inspections                                                          23
                                          CAP Review of the Portland VA Medical Center, Portland, OR


Recommendation 7. We recommended that processes be strengthened to ensure that
patients receive ordered aftercare services and/or items within the ordered/expected
timeframe.

Concur

Target date for completion: August 2014

Facility response: Portland VA Medical Center Prosthetic representatives, which are
new positions, have been created. This staff will have a customer-service focus which
includes insuring veterans receive ordered service and/or items. These staff will be in
place and trained by May 2014. Additionally, Primary Care staff will be re-educated on
follow up process after discharge from acute care to ensure appropriate aftercare
services. A random sampling of veterans orders will be monitored until a compliance
rate of 90% or greater is accomplished and sustained.

Recommendation 8. We recommended that the facility have a Veterans Health
Education Coordinator.

Concur

Target date for completion: January 2014

Facility response: A VHEC was appointed in January 2014.

Recommendation 9. We recommended that nursing managers monitor the staffing
methodology that was implemented in June 2013.

Concur

Target date for completion: June 2014

Facility response: Monitoring of the staffing methodology is done by the expert
unit-based and facility-based panels annually. The unit-based panels will meet and
make recommendations by the end of April each year. The facility-based panel will
meet and make recommendations in May of each year. These recommendations will
be recorded in the minutes of these meetings.

Recommendation 10. We recommended that all members of the facility and
unit-based expert panels receive the required training prior to the next annual staffing
plan reassessment.

Concur

Target date for completion: March 2014

Facility response: Required training was completed by all members of the Unit and
Facility expert Panels and tracked in TMS. The Chief Nurse Executive is responsible



VA OIG Office of Healthcare Inspections                                                          24
                                          CAP Review of the Portland VA Medical Center, Portland, OR


for assuring these changes are implemented and sustained. The Associate Chief
Nursing Officer in Nursing Professional Services is responsible for verifying and tracking
completion of TMS training.

Recommendation 11. We recommended that processes be strengthened to ensure
that acute care staff document stage for all patients with pressure ulcers and that
compliance be monitored.

Concur

Target date for completion: July 2014

Facility response: The skin assessment nursing template is under revision to strengthen
pressure ulcer stage documentation. This template, along with staff education on the
template, will be implemented April, 2014. A chart review monitor reviewing this
documentation will be reported to the Intra-Professional Pressure Ulcer Committee
(IPUC) until 90% or greater compliance is accomplished and sustained.

Recommendation 12. We recommended that processes be strengthened to ensure
that acute care staff consistently document required pressure ulcer information and that
compliance be monitored.

Concur

Target date for completion: July 2014

Facility response: The skin assessment nursing template is under revision to strengthen
all pressure ulcer documentation. This template, along with staff education on the
template, will be implemented April, 2014. A chart review monitor reviewing this
documentation will be reported to the Intra-Professional Pressure Ulcer Committee
(IPUC) until 90% or greater compliance is accomplished and sustained.

Recommendation 13. We recommended that processes be strengthened to ensure
that all patients discharged with pressure ulcers have wound care follow-up plans and
receive dressing supplies prior to being discharged and that compliance be monitored.

Concur

Target date for completion: August 2014

Facility response: The nursing discharge note is under revision to include wound care
follow-up plans which will include dressing supplies if needed. The nursing discharge
note template will be implemented and nursing staff will be educated on this note by
May, 2014. A chart review monitor reviewing this documentation will be reported to the
Intra-Professional Pressure Ulcer Committee (IPUC) until 90% or greater compliance is
accomplished and sustained.




VA OIG Office of Healthcare Inspections                                                          25
                                          CAP Review of the Portland VA Medical Center, Portland, OR


Recommendation 14. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education for patients at risk
for and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: August 2014

Facility response: The nursing discharge note is under revision to include wound care
patient/caregiver education provided. The nursing discharge note template will be
implemented and nursing staff will be educated on this note by May, 2014. A chart
review monitor reviewing this documentation will be reported to the Intra-Professional
Pressure Ulcer Committee (IPUC) until 90% or greater compliance is accomplished and
sustained.

Recommendation 15. We recommended that the facility establish staff pressure ulcer
education requirements and that compliance be monitored.

Concur

Target date for completion: September 2014

Facility response: Pressure ulcer education requirements will be established by a
multi-disciplinary workgroup reporting to the Inter-professional Pressure Ulcer
Prevention Committee (IPUC). Discipline-specific education materials will be developed
as appropriate and relevant staff will be educated on the new pressure ulcer education
requirements by September, 2014. The IPUC will monitor pressure ulcer staff
education compliance with a goal of 90% or greater completion. Quarterly reports on
this information will be presented to the Executive Quality Board.

Recommendation 16. We recommended that processes be strengthened to ensure
that staff document resident progress towards restorative nursing goals and that
compliance be monitored.

Concur

Target date for completion: August 2014

Facility response: The CLC has created a Restorative Nurse Care Coordinator position
that will be staffed and oriented by May, 2014. This nursing position will be responsible
for documenting resident progress towards restorative nursing goals. A restorative
nursing documentation monitor will be added to the CLC point of care chart reviews.
This documentation has a goal of 90% or greater compliance and will be reported to the
CLC Quality Action Team for review quarterly.




VA OIG Office of Healthcare Inspections                                                          26
                                          CAP Review of the Portland VA Medical Center, Portland, OR
                                                                                        Appendix E

                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Susan Tostenrude, MS, Team Leader
Contributors            Carol Lukasewicz, BSN, RN
                        Sarah Lutter, RN, JD
                        Sami O’Neill, MA
                        Mary Noel Rees, MPA
                        Robert Sproull, Resident Agent in Charge, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Marc Lainhart, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                          27
                                          CAP Review of the Portland VA Medical Center, Portland, OR
                                                                                         Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, Northwest Network (10N20)
Interim Director, Portland VA Medical Center (648/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Maria Cantwell, Jeffrey Merkley, Patty Murray, Ron Wyden
U.S. House of Representatives: Jaime Herrera Beutler, Earl Blumenauer,
 Suzanne Bonamici


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                          28
                                                 CAP Review of the Portland VA Medical Center, Portland, OR
                                                                                               Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
    Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
   References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
   References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
    July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
   The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                             29
                                               CAP Review of the Portland VA Medical Center, Portland, OR



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    30
